                                               Testimony
                                                   of

                                          Judith J. Gordon

                             Associate Deputy Inspector General
                               U.S. Department of Commerce

         Information Policy, Census, and National Archives Subcommittee
                                      of the
                  Oversight and Government Reform Committee
                             House of Representatives

                                    Thursday, March 25, 2010
                                       2154 Rayburn HOB
                                           2:00 p.m.

                       The 2010 Census:
       An Assessment of the Census Bureau’s Preparedness

Chairman Clay, Ranking Member McHenry, and Members of the Subcommittee:

Thank you for inviting us to testify today on the Census Bureau’s readiness for
this year’s decennial count. More than 100 million census forms were mailed to
addresses across the country last week, asking that they be filled out by residents
and returned by Census Day, April 1—one week from today.

Last month we released our third Quarterly Report to Congress 1 on the status of
the 2010 Decennial Census, covering October through December of last year. That
report discussed our findings in the areas of schedule, cost, and risk management.
Today, I would like to focus on an issue that affects all of these components: the
information systems that are integral to a successful count.

With a life-cycle cost estimate now at $14.7 billion, the 2010 Census is a massive
undertaking made up of many moving parts. The bureau must integrate 44
separate operations (with a total of some 9,400 program- and project-level
activities). Group quarters enumeration begins in less than a week, and the start of
the largest operation, nonresponse follow-up (NRFU), is just over 5 weeks away.

1
    2010 Census: Quarterly Report to Congress, Report OIG (Office of Inspector General)-19791-3, February
    2010. OIG reports are available on our Web site: www.oig.doc.gov.
Now estimated to cost $2.3 billion, NRFU is the most expensive operation of the
decennial, requiring census takers to visit every household that does not return a
form and record answers to the form’s questions.

Temporary bureau management staff must run 494 local offices and manage over
600,000 temporary workers, while recruiting substantially more. Much of the
Census Bureau’s plan is on track, but the success of NRFU—which is critical—
hinges on how effectively Census controls the enormous NRFU workload and
workforce. As I will discuss at length, it must do so using a Paper-Based
Operations Control System (PBOCS) with less functionality than planned and
currently experiencing significant performance problems. PBOCS is essential for
efficiently making assignments to enumerators, tracking enumeration forms, and
reporting on the status of operations. And Census must recruit, hire, and pay its
massive temporary workforce with a Decennial Applicant, Personnel, and Payroll
System (DAPPS) also experiencing persistent performance limitations.

While my testimony identifies serious issues currently faced by the Census
Bureau, we are mindful of the unparalleled challenge of the decennial and the
extraordinary efforts being made by bureau staff to achieve a successful outcome.
Nevertheless, NRFU efficiency and accuracy are at risk—because of PBOCS and
DAPPS limitations—and final decennial costs remain uncertain.


INFORMATION TECHNOLOGY SYSTEMS ARE BEING DEVELOPED QUICKLY
AND EXPERIENCING SERIOUS TECHNICAL PROBLEMS, LEADING TO
PERFORMANCE ISSUES THAT PLACE CENSUS SCHEDULE AT RISK

PBOCS is essential to managing data collection and quality control for ten discrete
enumeration operations, including the large, door-to-door NRFU. This system is
needed, for example, to make work assignments to enumerators, to confirm that
completed questionnaires have been returned to the office, and to ensure that
workload completion rates are on track.

As shown in Table 1, PBOCS is being deployed in phases, prior to the start of
each field operation it is to support. So far, it has been deployed for seven of ten
operations. Yet system development and testing have fallen substantially behind
schedule, resulting in a 3-week delay in deploying PBOCS for NRFU, now
scheduled for April 12. In addition, staff in local Census offices are encountering
technical problems in support of early field operations. And Census has
encountered major hardware and software issues affecting system performance
that have prompted Census officials to consult executives and senior



                                          2
technical troubleshooters from the companies that provide PBOCS hardware and
software components. Workarounds for NRFU are currently being planned to
overcome performance problems.

       Table 1. PBOCS Deployment and Field Operations Schedule
                        as of March 19, 2010
                                              Operation    Operation
Operation                                     Start        End           Deployment
Remote Alaska Enumeration                     January 25   April 30
Group Quarters Advance Visit                  February 1   March 19      January 19
Update/Leave                                  March 1      March 26
Enumeration of Transitory
Locations                                     March 19     April 12
                                                                         February 22
Remote Update/Enumerate                       March 22     May 29
Update/Enumerate                              March 22     May 29
Group Quarters Enumeration                    April 1      May 21        March 8
Nonresponse Follow-up (NRFU)                  May 1        July 10       April 12a
Vacant/Delete Check                           July 24      August 25     June 4
Field Verification                            August 6     September 3   July 13
a
    Represents a 3-week delay from March 22
Source: U.S. Census Bureau 2010 data

Start dates for Census field operations are fixed: If PBOCS is not ready or if
additional actions are not taken, field operations could be adversely affected,
resulting in increased cost and reduced accuracy of the population count.

The problems surrounding PBOCS are not new; we reported on these challenges
in prior testimony and in our last two quarterly reports to the Congress. It is clear
that the Census Bureau Director and his staff are taking extensive corrective
actions. But the risk remains.

With population counts for apportionment due to the President by December 31,
2010, the decennial census is the epitome of a schedule-driven program—with all
of its attendant risks and consequences. Issues in developing decennial systems
have included rushed and incomplete requirements specifications; cut corners in
program design, development, and testing; massive cost growth; and increased
operational and quality risks.

As our last quarterly report details, the development and testing of PBOCS is
being compressed to meet the schedule, partially due to a change in plans from

                                                3
using handheld computers to the use of paper for collecting respondent data.
However, the inevitable impact of this “just-in-time” approach is that errors are
not being found until the system is used in actual operations or functionality is not
complete. An example is completion of key PBOCS interfaces with other
decennial systems: Census headquarters and regional offices cannot use the Cost
and Progress system to monitor the progress of operations at the national, regional,
and local office levels because the interface with PBOCS has not been completed.
Fixes are currently being made to address problems identified in testing the
PBOCS interface with the quality-control system for the update/enumerate 2
operation and NRFU, called the Matching and Review Coding System.


System Problems Already Affecting Operations

Local Census office staff are experiencing PBOCS reliability problems in early
enumeration operations. Our analysis of help desk reports indicates that users have
experienced difficulties with assigning work to enumerators, updating completed
work, and generating reports used to track field work progress, performance, and
accuracy. Further, PBOCS has experienced slow performance during office hours,
and continues to experience complete system outages. An outage earlier this week
lasted an entire day. Similar outages during NRFU would be particularly serious.

In addition, PBOCS performance does not yet meet the operational needs of
NRFU, which is scheduled to start May 1—just 37 days from today. The number
of simultaneous users permitted to access PBOCS in each local Census office is
only seven—half the number that Census expects will be needed for NRFU. A
Census team of engineers and operational managers is aggressively attacking
decennial system performance issues: the team meets daily and is working around
the clock to monitor and to plan and implement improvements.

This team’s major strategy for improving PBOCS performance is to add about
$6 million in hardware to double the computing capacity of the operational and
test environments, along with building a new backup environment. Up to now,
work on system performance had to compete with system testing for needed
computing resources. Census expects the new hardware to be in place by April 5.

The team has focused on minimizing risk to existing operations while making
changes—both hardware and software—to improve PBOCS performance. This
approach will probably have to continue after the installation of the new hardware.
Despite the team’s best efforts, as operations are increasing in scale, local Census
office staff have been reporting that nightly and weekend downtimes needed to

2
    See Appendix for a description of this operation.

                                                        4
correct bugs, install additional hardware, and test and deploy new functionality are
affecting operations because staff are unable to run additional shifts needed to
catch up on work that is behind schedule. If this were to continue into NRFU, it
would severely increase the risk to completing the operation on schedule, due to
NRFU’s massive scale.

Census has also been developing major workarounds to address PBOCS
performance issues. Some of the planned workarounds include using other
decennial systems to print materials needed by local Census offices and
prioritizing the work of these offices. Printing of materials needed for enumeration
in general and for NRFU in particular is a big concern. With NRFU, the demands
of printing materials for 47 million housing units must be met in a very short
period of time. Workarounds are currently being developed to prepare electronic
copies of materials at headquarters in advance so that local Census office staff can
retrieve and print them more quickly.


Decennial Applicant, Personnel, and Payroll System (DAPPS) Likewise
Suffering Persistent Performance Limitations

DAPPS is also needed to support recruiting, applicant tracking and processing,
and personnel and payroll processing for the massive temporary Census
workforce. Along with PBOCS, it has suffered ongoing and persistent operational
limitations. DAPPS has been affected by numerous outages and poor performance.
To help alleviate the heavy demand on this system, Census initiated a procedure to
stagger each region’s use of the application to minimize the number of concurrent
users. Following this change, no outages have been reported, but system
performance continues to be slow and hardware resources operate consistently at
or near full capacity.

The same specialized team that is tackling PBOCS performance issues has also
been monitoring and working on DAPPS. According to the team, it has made all
the software changes possible to improve performance; team members see current
problems as a result of insufficient hardware resources. Consequently, the team's
approach has mirrored its strategy for PBOCS: it has been implementing and
testing approximately $5 million-worth of new hardware to replace existing
resources. The new hardware more than triples current system capacity. Initial
load tests of the new hardware indicate that performance problems will likely be
resolved once the hardware is deployed in the operational environment. The new
hardware was placed in operation this past Monday.




                                         5
To summarize, both PBOCS and DAPPS continue to proceed under very difficult
conditions. Specifically:

• Systems development for NRFU is behind schedule;
• Critical software errors persist;
• System performance is not meeting operational needs; and
• With operations underway, staff are working to resolve technical and
  performance issues and deploy new functionality, while struggling to minimize
  the impact to ongoing field operations.

Accordingly, Census will have to rely upon workarounds for PBOCS—and
possibly for DAPPS—in order to complete operations. Workarounds for software
errors, performance limitations, and operations falling behind schedule need to be
fully developed and test, as well as clearly communicated and coordinated, to
ensure that the operational impact of further disruptions caused by PBOCS and
DAPPS will be reduced where possible.


CENSUS MUST CLOSELY MONITOR NRFU COSTS GIVEN OVERRUNS AND
INEFFICIENCIES FOUND IN THE COMPLETED ADDRESS CANVASSING
OPERATION

Wide variances between budgeted and actual costs hinder confidence in the
Census Bureau’s budgeting and cost containment process for large-scale field
operations. Our analysis of address canvassing budget overruns revealed wide
disparities in spending among local Census offices. Census Bureau headquarters
formulated a total budget of $356 million for address canvassing in 2009. This
amount was allocated among the 151 early local Census offices based on the type
of area—such as urban or rural—covered by each office. Following the operation,
Census reported that address canvassing overspent its budget by $88 million
(25 percent). The two major cost drivers of the operation were wages and
reimbursement for miles driven by temporary employees (listers) to assignment
areas. For production, one-third of the offices exceeded their wage budgets and
one-half exceeded their mileage budgets. For the quality control operation,
82 percent of the offices exceeded both their wage and mileage budgets.

This review of address canvassing wage and travel data revealed several
inefficiencies that Census managers should be aware of in managing 2010 field
operations, chief among them an excessive number of miles claimed by the
temporary employees, and training costs. Analyzing bureau data, we found that
604 employees spent the majority of their time driving instead of conducting field

                                         6
work; of those, 23 spent all of their time driving. 3 This analysis suggests that some
employees may have over-reported the number of miles driven. While the number
of employees with questionable reimbursements is very small compared with the
overall universe of 140,000 employees involved in this operation, the potential
exists for this problem to be compounded because upcoming fieldwork operations
will involve significantly more temporary employees than did address canvassing.
Census Bureau managers should monitor mileage reimbursements carefully during
upcoming enumeration operations, and verify the validity of those reimbursement
claims that appear excessive before they are paid.

The Census Bureau spent a great deal of money on training for the amount of
work it received. For example, over 10,000 employees earned over $300 apiece
for attending training but performed no work for Census; an additional 5,000
employees received the same money for attending training and worked only a
single day—or less. It may be that some employees, after being trained, decided
that they did not want to do this kind of work; others may have been deemed unfit.
Nevertheless, the costs were substantial—not only what was paid directly to
employees, but the costs of the training as well.

Census expenses and projections are a moving target, as might be expected of an
operation whose many parts are already progressing on several fronts. Such
inefficiencies as we found in the areas of wage, travel, and training costs are the
kind for which Census should develop effective internal controls and ensure that
managers scrupulously follow these controls in future operations.


COST CONTAINMENT—ESSENTIAL FOR FIELD OPERATIONS—REQUIRES
STRONG BUDGET ESTIMATION CAPABILITY

The ability to produce valid budget estimates is essential for cost containment. The
25-percent cost overrun for address canvassing indicates that either the budget for
this operation was unrealistically low or that cost containment for the operation
was poorly managed. In contrast, Census spent only about 59 percent of its group
quarters validation 4 budget, somewhat more than $41 million out of a field budget
of over $70 million. Inaccuracies of this magnitude in estimated budgets—high or
low—combined with wide variances among early local Census offices in address
canvassing costs, indicate significant weaknesses in the bureau’s budget
estimation capabilities.


3
  We analyzed the number of miles reported driven per hour compared with the total number of hours
  worked by address canvassing employees.
4
  The group quarters validation operation is aimed at verifying information from each one of the potential
  group quarters nationwide.

                                                     7
The important lesson for the Census Bureau now is that with NRFU set to begin
very soon—with three times the number of employees and offices than were
involved with address canvassing—the bureau’s revised budget estimate needs to
be as accurate as possible so that the operation’s final cost does not exceed the
amount budgeted, which includes a 15-percent contingency. With $7.4 billion in
funding from FY 2009, FY 2010, and the American Recovery and Reinvestment
Act to be expended for the decennial in FY 2010, poor estimating will not be an
acceptable justification for any later request for supplemental funding.

Under the Census Bureau Director’s leadership, Census has, in fact, reexamined
its NRFU budget. Its recently-provided estimate totals $2.33 billion. However, it
continues to finalize revisions to this estimate, with the operation scheduled to
begin May 1. This is $410 million less than the bureau’s earlier estimate, but it
does not factor in the productivity reductions that may result from a PBOCS with
significantly reduced capabilities and performance and the problematic
performance of DAPPS.

In addition, any reductions that may be achieved in NRFU are likely to be partially
offset by an estimated increase of $137 million for the vacant/delete check
operation. The vacant/delete check workload, originally estimated at 8 million
cases, has now been revised to 14.5 million cases. This results in an estimated cost
increase from $345 million to $482 million.

The bureau has identified two components as the areas of greatest concern due to
their high level of uncertainty and high impact on cost: workload (a function of the
level of mail response) and staff productivity. To these we would add the unknown
impact on operations of a PBOCS with reduced functionality and performance.


THE CENSUS BUREAU IS MAKING PROGRESS WITH ITS RISK REDUCTION
ACTIVITIES, BUT CONTINGENCY PLANS REMAIN UNFINISHED
Census’s risk management plan establishes processes and procedures for
monitoring decennial risks and identifies staff responsible for implementing them.
Each program-level risk—i.e., one that may affect overall program cost, schedule,
and technical and compliance objectives—must have a plan that defines mitigation
strategies and specific time frames, along with staff to implement them. The risk
management plan also requires contingency plans for addressing certain risks
triggered by a missed date or specific event, and these plans are to be completed
well in advance of the expected trigger. The bureau’s risk management program
represents a significant improvement over the 2000 decennial, which lacked a
formal risk management process.


                                         8
While the bureau is making progress with its risk reduction activities, contingency
planning remain unfinished, and contingencies for PBOCS are under development.

Census’s Risk Review Board (RRB) continues to oversee risk management
activities and update its “risk register.” As of March 19, the register contained
24 program-level risks, each rated high (likely), medium (somewhat likely), or low
(unlikely), and has undergone a few changes since the beginning of this year. The
distribution of risk ratings currently stands at 10 high, 10 medium, and 4 low. In
our February quarterly report, we noted that the risk register at the end of the
period contained 25 risks—8 high, 14 medium, and 3 low. The two new high risks
are an inaccurate Puerto Rico address list and a potential national immigration
policy backlash.

In addition, the RRB has been completing contingency plans to guide the bureau
in addressing problems that might arise should mitigation plans and activities
aimed at program risks fail. Progress on contingency planning continued during
the last quarter of last year, but time is running short; currently, five
of the 12 plans are not yet final. 5 Significant work, then, remains to be completed.
This is especially critical in light of the difficulties with PBOCS, so that
alternative plans will be ready to be put in motion if needed.

During the period encompassing our last quarterly report, we reviewed four
contingency plans that had been completed as of February 16 of this year, and they
appeared adequate. The four plans are:

• Information Technology (IT) Security Breach
• Loss of Confidential Data
• Continued Operations of Critical Infrastructure During Disasters
• H1N1 Influenza Affecting Regional Census Centers and Local Census Office
  Activities

A contingency plan will be triggered if its mitigation activities are no longer
effective, prompting the risk to materialize. When a trigger—such as a date or an
event—occurs, appropriate Census staff will assess impacts to the decennial
schedule and resources, take necessary actions to resolve problems, and monitor


5
 Of the seven that have been completed, we reviewed the four listed above. The other three include (1) a
major disaster’s effect on population, (2) H1N1 influenza and similar contagious illnesses affecting
non-regional Census Centers and non-local Census Offices activities, and (3) uncertainty of assumptions in
cost model.


                                                    9
their effect on operations. For example, if an H1N1 influenza outbreak were to
affect a local Census office, managers could hold employee replacement training,
limit visitors to the office, and monitor the staff illness rate.


OFFICE OF INSPECTOR GENERAL OVERSIGHT PLAN FOR DECENNIAL
OPERATIONS AND SOME INITIAL OBSERVATIONS

The Office of Inspector General (OIG) is continuing to monitor the bureau’s
progress—on PBOCS, DAPPS, and other key decennial activities. In addition,
over the next several months, about 100 members of our staff will be participating
in what is for us an unprecedented effort in scope and resource commitment, to go
on the road and observe Census workers in action. Such oversight, while Census
activities are ongoing, will allow us to immediately observe successes along with
any problems that might arise, and notify the bureau without delay.
Our initial observations in the field during the update/leave operation have
identified three major challenges:
• Slow and unreliable computer systems,
• Incorrect maps in some locations, and
• Potential shortfalls in identifying outdoor homeless locations by the
  partnership assistance program.

According to local Census office personnel, the slow performance and lack of
reliability of PBOCS and DAPPS is affecting staff efficiency. Although we cannot
quantify the impact, we have observed work getting interrupted, data having to be
entered into the system more than once, and completion of tasks being delayed.
Staff are therefore concerned about their ability to manage their growing
workloads and meet their deadlines as Census operations expand—especially
during NRFU.
We have identified a few areas in which it appears that maps were not updated
from the address canvassing operation. Consequently, enumerators working on
update/leave spent significant amounts of time updating maps—work that should
have been completed during address canvassing—thereby increasing their total
workloads. We identified multiple instances of this at one office, but if
widespread, this would be a significant problem. We are working with the bureau
to determine both the extent of and reason for these map errors.
Finally, Recovery Act funds increased the number of partnership specialists and
created a new partnership assistant position. With these additional positions, the
partnership program added a new workload responsibility—identifying locations

                                         10
and contact information for regularly scheduled mobile food vans and targeted
nonsheltered outdoor locations within a local Census office area, for the service-
based (homeless) enumeration. Our initial field visits indicate that the partnership
program—at least in nonurban areas—did not, in fact, assist with this effort as
intended. As a result, the local Census office staff have had to take on the
additional workload of identifying outdoor homeless locations requiring
enumeration.
The appendix to this statement provides a fuller discussion of our approach to
overseeing this year's operations.
Mr. Chairman, this completes my prepared remarks, and I would be happy to
respond to questions from you or any other Members of the Subcommittee.




                                         11
APPENDIX



                       OFFICE OF INSPECTOR GENERAL
                  2010 DECENNIAL CENSUS OVERSIGHT PLAN

The Census Bureau has identified 44 decennial operations for 2010. These
operations span several years and entail providing support, establishing where to
count, collecting and integrating respondent information, providing results,
measuring coverage, and performing analysis and research for the 2020 Census. In
FY 2010 we anticipate covering aspects of 20 of these operations, including
deploying substantial numbers of staff to observe eight Census field operations.
This work will also inform our oversight of the 2020 census.

OIG resources devoted to the 2010 Decennial Census over the coming year will
involve almost 100 members of our staff at a given point in time. Details of our
planned staffing deployment over the course of the calendar year are provided in
Figure 1, below. The variability of resource deployment is related to the number
and extent of the field operations conducted by Census. During this period, OIG
plans to expend approximately 35 full-time-equivalent employees (FTEs) at an
estimated cost of about $5.8 million for the review of the decennial census. OIG
will oversee Census Bureau field and headquarters management of operations,
field enumeration activities, information technology (IT) systems and the security
of personally identifiable information, and internal controls over payroll.

                   £Lqure 1. OIG Census 2010 Oversight StafiiI1g Plan
       100
        90           f\                                    ~           Nonresponse Follow-up
                                                                                               I
        80

 -•,             5-L~
 ~
 ~
                                 Enumeration of Transitory Locations
        70                                                                    I
                  ~r\ jq
        60
 "5
 ~
        50
                               Service-Based Enumeration

                                 ~
                                                            I
 ,,
 ~
  0

        40   I,                            Update/Leave         I
 ,E     30
                               Upd.../En.m.....    I'
 z

             •
                                                                    PBOCS (Oeployment Dates) I
        20
        10
                                                                                                   -
        0




                                              12
APPENDIX


Field Activities

Our oversight of field activities will include deploying staff to selected local
Census offices nationwide to observe whether activities are being conducted in
accordance with Census procedures (for example, whether the Census
questionnaire is being administered properly; whether map and address list
updating is being completed correctly, where applicable; etc.) and local Census
office practices. We will notify the Census Bureau promptly of any problems
needing immediate attention. We will summarize our observations and findings in
a final report, to be completed in FY 2011. This capping report will provide our
summary assessment of the overall efficacy and efficiency of the 2010 Census
enumeration. This and subsequent reports will provide lessons learned to aid in
planning for the 2020 Census.

In FY 2009 we observed address canvassing and group quarters validation. During
FY 2010 field operations we intend to have a presence in every enumeration
activity. In our planning for this major deployment of OIG personnel, we analyzed
multiple data sources to ascertain the areas in which the Census Bureau may face
its greatest demographic and operational hurdles. The following are six decennial
operations that we will be observing:

• Update/Leave: In areas in which many homes do not receive mail at a city-
  style address, enumerators canvass assignment areas to deliver a Census
  questionnaire to each housing unit. At the same time, they update the address
  list and maps. This method is also used in selected collection blocks within
  mailout/mailback areas, where mail delivery may be a problem, such as
  apartment buildings where mail is left in common areas.

• Update/Enumerate: Enumerators canvass assignment areas to update
  residential addresses, including adding living quarters that were not included
  on original address listing pages, update Census Bureau maps, and complete a
  questionnaire for each housing unit. This occurs in communities with special
  enumeration needs and in which many housing units may not have house-
  number-and-street-name mailing addresses, similar to update/leave.

• Enumeration of Transitory Locations: Enumerators visit transitory locations,
  such as campgrounds and hotels, to enumerate their residents.

• Service-based Enumeration: This focused, 3-day enumeration provides an
  opportunity for people living on the street or in shelters to be included in the
  Census.



                                         13
APPENDIX


• Nonresponse Follow-up (including Vacant/Delete Check): Enumerators visit
  addresses for which the Census Bureau had no questionnaire or telephone
  response. Enumerators collect information about household residents as of
  April 1, 2010.

• Coverage Follow-up: This telephone operation attempts to resolve erroneous
  enumerations and omissions.

Our field observations will focus on a judgmental sample of 34 of 151 early local
Census offices that supported address canvassing operations. These are split into
smaller local Census offices for enumeration activities; our sample equals 113 of
494 local Census offices. The areas highlighted on the following map (Figure 2)
indicate the boundaries of local Census offices within our sample. OIG staff will
observe Census operations in selected areas within those locations.

              Figure 2. Local Census Office Boundaries within
                    Sample to be Observed by OIG Staff




          ,,



                       "   '.,.,
          "
                                t>
To ensure nationwide coverage, we initially selected at least one early local
Census office per Census region. Our selections were based on the bureau’s
demographic measures of enumeration difficulty, operational factors such as
blocks with large populations, and significant socioeconomic changes such as high
foreclosure rates or high growth rates. Next, we identified a smaller sample

                                        14
APPENDIX


conveniently located near OIG offices. The remaining selections were included to
ensure adequate representation of population density and specific hard-to-count
populations. For example, we intentionally included the rural Mississippi Delta
and the hurricane-affected Galveston, Texas, areas. We balanced the sample by
including several areas that were not considered hard to count. A listing of the
early local Census offices in our sample follows:

Anchorage, AK                                 St. Louis City, MO
Flagstaff, AZ                                 Jackson, MS
Phoenix Central, AZ                           Meridian, MS
Los Angeles Downtown, CA                      Las Vegas, NV
Stockton, CA                                  Bronx Southeast, NY
Lakewood, CO                                  Queens Northwest, NY
DC East, DC                                   Syracuse, NY
Miami East, FL                                Canton, OH
Sarasota, FL                                  Oklahoma City, OK
Atlanta South, GA                             Charleston, SC
Honolulu, HI                                  Rapid City, SD
Chicago Far North, IL                         Houston Central, TX
Chicago Near South, IL                        Salt Lake City, UT
Frederick, MD                                 Richmond, VA
Seat Pleasant, MD                             Tacoma, WA
Portland, ME                                  Eau Claire, WI
Detroit West, MI                              Charleston, WV

Other Reviews

In addition to deploying staff to observe enumeration activities, we will be
conducting reviews in the following areas:

• Evaluating and Monitoring Decennial Systems: We plan to evaluate key IT
  decennial systems for development and operational risks that may affect
  critical decennial operations and the accuracy of the population count. We will
  assess the paper-based operations control system and management
  workarounds required to address its anticipated shortcomings, starting with the
  group quarters advanced visit operation, as well as the Decennial Applicant,
  Personnel, and Payroll System (DAPPS). Other systems that may be reviewed
  include the response processing system, the universe control and management
  system, and the Decennial Response Integration System (DRIS).




                                         15
• Safeguarding Decennial Respondent Confidential Data: We will assess
  controls to protect the confidentiality, integrity, and availability of electronic
  decennial respondent information.

• Census’s Ability to Detect/Respond to Cyber Attacks: We will evaluate the
  extent and effectiveness of Census’s monitoring of its decennial information
  systems for malicious activity.

• 2010 Enumeration Payroll and Progress Review: In our ongoing audit of
  address canvassing payroll for the decennial Census, we are verifying the
  accuracy and integrity of payroll processing, including a review of supervisory
  approval, overtime compliance, and time-and-expense reports. The overall
  purpose of this review will be to monitor the cost and progress of the 2010
  Census field operations and verify the accuracy and integrity of the payroll—
  with emphasis placed on identifying irregular operations, assessing
  management staffing and deployment decisions, and identifying fraud.

• Early 2020 Planning: Planning for the 2020 Census has already started, and we
  intend to track progress throughout the decade. Weaknesses in the bureau’s
  cost estimating techniques and its failure in planning and managing the
  acquisition of handheld computers for field data collection were major
  contributors to the eventual cost overruns and high level of operational risk. A
  related factor was the misalignment of budgets, schedules, requirements,
  testing, and acquisitions leading up to the 2010 Census. We will monitor early
  2020 planning to identify more cost-effective methods for obtaining a high-
  quality address file and conducting enumeration, and promote more effective
  and transparent decennial planning and budgeting.




                                          16
